No. 19-1218
In the

Supreme Court of the United States
__________________
MARCUS LEE ROBINSON,
v.
COLORADO,
__________________

Petitioner,

Respondent.

On Petition for Writ of Certiorari to the
Colorado Supreme Court

__________________

BRIEF IN OPPOSITION
__________________
DOYLE BAKER
Senior Deputy District Attorney
Counsel of Record
DANIEL H. MAY
District Attorney
EL PASO COUNTY, COLORADO
DISTRICT ATTORNEY
105 East Vermijo Ave.
Colorado Springs, Colorado 80907
doylebaker@elpasoco.com
(719) 520-7384
Counsel for Respondent
August 24, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
Petitioner was charged with sexually assaulting an
unconscious woman. Another woman witnessed the
incident, which took place at night in a darkened room.
To convict petitioner of a completed sexual assault, the
prosecution had to prove penile penetration of the
victim’s vagina.
In her opening statement, the prosecutor drew the
jury’s attention to the contrasting skin tones of the
victim, a white woman, and petitioner, an AfricanAmerican man. She stated that jurors would hear that
the perceiving witness saw “a dark penis going into a
white body. That’s how graphic she could see.”
Although the prosecutor later questioned the
witness about the parties’ contrasting skin tones, the
witness did not testify as the prosecutor had predicted.
Defense counsel did not object to the prosecutor’s
race-based statements or questions. The jury convicted
petitioner of attempted sexual assault and other
crimes. The Colorado Court of Appeals reversed those
convictions, concluding that the prosecutor’s conduct
violated Colorado’s plain-error standard. On review,
the Colorado Supreme Court employed the same plainerror standard to reverse the court of appeals. The
supreme court did not consider petitioner’s new
argument that the matter should be reviewed under a
modified version of the plain-error test.
The question presented is whether this Court
should review a case that raises no federal question
and, in doing so, employ a novel standard of review
that was never considered by Colorado’s appellate
courts.

ii
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iii
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 2
REASONS FOR DENYING THE PETITION. . . . . . 8
I.

This Court lacks jurisdiction over this case,
because the Colorado Supreme Court did not
consider the alleged federal question
presented in the petition . . . . . . . . . . . . . . . . . 8

II.

Petitioner has forfeited the right to argue
that this Court should review the
prosecutor’s remarks under a modified
version of the plain-error test that would
relieve him of the burden of showing
prejudice to his substantial rights, given his
failure to raise that argument in a proper
manner in the Colorado courts . . . . . . . . . . . 11

III.

This case is a poor vehicle for resolving the
question presented . . . . . . . . . . . . . . . . . . . . 13

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

iii
TABLE OF AUTHORITIES
CASES
American Family Mut. Ins. Co. v. DeWitt,
218 P.3d 318 (Colo. 2009) . . . . . . . . . . . . . . . . . . 11
Calhoun v. United States,
133 S. Ct. 1136 (2013). . . . . . . . . . . . . . . . . . 12, 13
Cutter v. Wilkinson,
544 U.S. 709 (2005). . . . . . . . . . . . . . . . . . . . . . . 11
Frazier v. Cupp,
394 U.S. 731 (1969). . . . . . . . . . . . . . . . . . . . . . . 15
Hagos v. People,
288 P.3d 116 (Colo. 2012) . . . . . . . . . . . . . . . . . . . 5
Harris v. People,
888 P.2d 259 (Colo. 1995) . . . . . . . . . . . . . . . . . . . 5
Henry v. Mississippi,
379 U.S. 443 (1965). . . . . . . . . . . . . . . . . . . . . . . 10
Herb v. Pitcairn,
324 U.S. 117 (1945). . . . . . . . . . . . . . . . . . . . . . . . 8
Hoggard v. People,
465 P.3d 34 (Colo. 2020) . . . . . . . . . . . . . . . . . . . . 9
Lynch v. New York ex. Rel. Pierson,
293 U.S. 52 (1934). . . . . . . . . . . . . . . . . . . . . . . . 10
Miller v. North Carolina,
583 F.2d 701 (4th Cir. 1978). . . . . . . . . . . . . . . . 13
Mullaney v. Wilbur,
421 U.S. 684 (1975). . . . . . . . . . . . . . . . . . . . . . . . 9

iv
People v. Bowers,
801 P.2d 511 (Colo. 1990) . . . . . . . . . . . . . . . . . . . 5
People v. Vigil,
127 P.3d 916 (Colo. 2006) . . . . . . . . . . . . . . . . . . . 9
Puckett v. United States,
556 U.S. 129 (2009). . . . . . . . . . . . . . . . . . . . . . . 10
Reynolds v. State,
580 So.2d 254 (Fla.App. Dist. 1991). . . . . . . . . . 14
State v. Monday,
257 P.3d 551 (Wash. 2011) . . . . . . . . . . . . . . . . . 14
United States v. Doe,
903 F.2d 16 (D.C. Cir. 1990). . . . . . . . . . . . . . . . 13
United States v. Oakland Cannabis Buyers’
Cooperative, 532 U.S. 483 (2001) . . . . . . . . . . . . 11
United States v. Olano,
507 U.S. 725 (1993). . . . . . . . . . . . . . . . . . . . . . . . 9
Wilson v. People,
743 P.2d 415 (Colo. 1987) . . . . . . . . . . . . . . . . . . . 5
STATUTE
28 U.S.C. § 1257(a). . . . . . . . . . . . . . . . . . . . . . . . . . . 9
RULE
Colorado Crim. P. 52(b) . . . . . . . . . . . . . . . . . . . . . . . 9

1
INTRODUCTION
Petitioner asks this Court to review a Colorado
Supreme Court decision that does not address a federal
question, and he asks this Court to employ a standard
of review that Colorado’s appellate courts did not
consider. In the court of appeals, petitioner urged
reversal under Colorado’s plain-error standard, which
is easier for defendants to satisfy than the federal
standard. Consistent with petitioner’s argument, the
court of appeals employed the state standard. The
Colorado Supreme Court likewise applied Colorado’s
plain-error test.
Having failed to prevail under Colorado’s test,
petitioner now asks this Court to review the Colorado
Supreme Court’s decision under a modified version of
the federal plain-error test. In doing so, he asks the
Court to do something that it lacks the authority to
do — review a state law determination that is
sufficient to support the judgment below — and
another that it is loath to do — consider the merits of
a new argument that was not addressed by the courts
below.
Even if this Court were disposed to consider
petitioner’s request, this case is a poor vehicle to
address the question presented. As the Colorado
Supreme Court noted in its opinion, the prosecutor’s
race-based comments occurred in her opening
statement while explaining to the jury what she
expected the evidence would show. Her remarks were
inartful and better left unsaid, but they were bereft of
the sort of derogatory references to race that populate
the cases cited by petitioner in support of his request

2
for certiorari review. And, as noted by the Colorado
Supreme Court, the prosecutor’s remarks were not
simply gratuitous, but had potential relevance to the
disputed evidentiary points of whether penile
penetration occurred and how the perceiving witness
was able to see such penetration in a darkened room.
In these circumstances, further review by this Court is
unwarranted.
STATEMENT OF THE CASE
1. Factual Background. While hosting a party at
her apartment, A.M. became drunk and passed out on
a couch. R. Tr. 107-108, 193 (May 13, 2014). E.G., who
was a guest at the party, fell asleep at the other end of
the couch. R. Tr. 107 (May 13, 2014). Petitioner, who
was in a relationship with A.M.’s roommate, arrived as
the party was winding down. Pet. App. 2a.
At petitioner’s jury trial, E.G. testified that, after
falling asleep, she was awakened three times by
petitioner.
The first time, petitioner was standing
over her with his exposed penis in her face. Pet. App.
2a. E.G. told petitioner to leave her alone. R. Tr. 119
(May 13, 2014). He then walked away, and E.G. fell
back to sleep. R. Tr. 119 (May 13, 2014). The second
time, E.G. saw petitioner rubbing the breasts and
thighs of the unconscious A.M. Pet. App. 2a. E.G.
yelled at petitioner to get off of A.M. Pet. App. 2a. He
again left the room, and she went back to sleep. Pet.
App. 2a.
E.G. testified that she woke up a final time in
response to what she described as a “sexual motion,
like a grinding,” and saw petitioner vaginally

3
penetrating the still-unconscious A.M. Pet. App. 2a.
E.G. screamed at petitioner. Pet. App. 3a. He left the
apartment, and E.G. called 911. Pet. App. 3a.
Medical personnel came to the apartment and
attended to A.M., who they found unconscious and with
her leggings and underwear around her ankles. Pet.
App. 3a. A.M. was revived and examined at a hospital.
R. Tr. 14-18 (May 14, 2014). A.M. had no memory of
what had occurred at the apartment, and the nurse
who examined her could not determine whether A.M.
had been subjected to a sexual assault that included
vaginal penetration. R. Tr. 16-21.
Petitioner was arrested, and he admitted to police
that he had asked A.M. to have sex with him. Pet.
App. 3a. But he denied having any sexual contact with
A.M., who had repeatedly turned down his
solicitations. Pet. App. 3a. Petitioner also denied any
sexual contact with E.G. Pet. App. 3a.
Petitioner was tried on various charges, including
the alleged sexual assault of A.M. Near the end of jury
selection, defense counsel asked the prospective jurors
if they were made uncomfortable by the disparate races
of petitioner, an African-American man, and A.M., a
white woman. R. Tr. 58 (May 13, 2014). No one
expressed any concerns. R. Tr. 58 (May 13, 2014).
Several panel members stated that they would not let
matters of race influence their verdict and would alert
the trial judge if others did. R. Tr. 58-59 (May 13,
2014).
In her opening statement, the prosecutor discussed
the distinct skin tones of A.M. and petitioner. She

4
predicted the jurors would hear that the perceiving
witness, E.G., saw “a dark penis going into a white
body. That’s how graphic she could see.” R. Tr. 92
(May 13, 2014). But E.G.’s testimony did not unfold as
the prosecutor predicted. Although she testified that
she could see that penile penetration occurred, and
although the prosecutor questioned her about the
difference in the parties’ skin color, E.G. did not testify
that the contrasting skin tones of A.M. and petitioner
enabled her to see a completed sexual assault. R. Tr.
126-127 (May 13, 2014).
Throughout the trial, the trial judge reminded the
jurors that they were to evaluate the evidence
independent of their personal prejudices and the
attorneys’ statements. Immediately before opening
statements, the judge instructed the jurors that
opening statements are not evidence but are intended
as an aid in understanding what the evidence will be.
R. Tr. 82 (May 13, 2014). Immediately before closing
arguments, the judge instructed the jurors that they
were not to allow bias or prejudice to influence their
decisions in the case. R. Tr. 112-113 (May 14, 2014).
The jury acquitted petitioner of all the charges in
which E.G. was the named victim. As to the charges
for which the named victim was A.M., the jury
acquitted petitioner of every count that required proof
of sexual penetration. Pet. App. 5a. But it convicted
petitioner of two counts of attempted sexual assault
and two counts of unlawful sexual contact. Pet. App.
5a.
2. Proceedings in the Colorado Court of
Appeals. Petitioner directly appealed his convictions.

5
Pet. App. 16a-38a. He argued that the prosecutor’s
description in opening statement of “a dark penis going
into a white body” constituted misconduct that violated
Colorado’s test for plain error. Robinson C.A. Br. 5-6
(citing People v. Bowers, 801 P.2d 511 (Colo. 1990);
Hagos v. People, 288 P.3d 116 (Colo. 2012); and Harris
v. People, 888 P.2d 259 (Colo. 1995)). In a published
opinion (found at 459 P.3d 605 (Colo.App. 2017)), the
court of appeals agreed with petitioner’s argument and
reversed his convictions. Pet. App. 26a.
The court of appeals applied Colorado’s plain-error
test, under which “[r]eversal is required if the
misconduct was obvious and ‘so undermined the
fundamental fairness of the trial itself as to cast
serious doubt on the reliability of the judgment of
conviction.’” Pet. App. 25a (quoting Wilson v. People,
743 P.2d 415, 420 (Colo. 1987)). The court concluded
that the prosecutor’s race-based remarks in her
opening statement constituted misconduct because she
did not articulate any conceivably proper basis for the
remarks. Pet. App. 21a. The court also concluded that
the error was obvious, because such race-based
statements are “totally off-limits” in all courts “[e]xcept
under extremely rare circumstances.” Pet. App. 25a.
Finally, the court concluded that, although several
circumstances may have mitigated the impact of the
prosecutor’s statements, and although it was
impossible to tell if the prosecutor’s remarks had any
impact on the jury, they cast serious doubt on the
reliability of petitioner’s convictions because “the risk
that Robinson did not receive a fair trial by unbiased
jurors is simply too great to ignore.” Pet. App. 26a-29a.

6
3. Proceedings in the Colorado Supreme Court.
The Colorado Supreme Court granted certiorari and, in
a unanimous decision, reversed the court of appeals.
Pet. App. 1a-15a. Although it agreed with the court of
appeals that the prosecutor’s statements were
improper, the supreme court held that reversal was not
required under Colorado’s test for plain error.
In discussing whether the error was obvious, the
supreme court noted that the prosecutor’s race-based
comments occurred in the context of suggesting to the
jury how she expected E.G. to testify. Pet. App. 13a.
The supreme court recognized that this expected
testimony was at least possibly relevant to whether
penile penetration occurred and how E.G. could have
seen such penetration in a darkened room. Pet. App.
13a. The court stated that, in these circumstances, “we
can discern a reasonable argument that the
impropriety of the prosecutor’s comments may not have
been so obvious as to require the trial court to
intervene sua sponte.” Pet. App. 13a. And it noted
that such an argument had particular force here,
“where the comments were made in opening statement
and defense counsel did not object, notwithstanding the
fact that during voir dire, she had made clear that she
was sensitive to the issues of race presented in this
case.” Pet. App. 13a-14a.
Ultimately the supreme court concluded that it need
not decide whether the error was obvious because the
other elements required to show plain error under
Colorado law were not satisfied. Pet. App. 14a. The
court reached this conclusion for two reasons.

7
First, the trial judge had instructed the jury that it
was not to let bias or prejudice influence its decisions,
and there was no evidence in the record to suggest that
the jury failed to follow this instruction. Pet. App. 14a.
Second, the jury acquitted petitioner of every charge to
which the improper statements were directed (namely,
every charge requiring proof of penetration), which
tended to show that the jurors fairly and properly
weighed the evidence despite the prosecutor’s
statements. Pet. App. 14a. For these reasons, the
supreme court concluded that the prosecutor’s error did
not so undermine the fundamental fairness of
petitioner’s trial so as to cast serious doubt on the
reliability of his judgment of conviction, and thus the
test for plain error was not met. Pet. App. 14a.
The Colorado Supreme Court did not acknowledge
petitioner’s argument, which he failed to make in the
court of appeals, that the prosecutor’s remarks should
be examined under a novel standard that would
presume prejudice or otherwise relax the application of
the plain-error standard when examining race-based
comments. Pet. S.C. Br. 30-32.

8
REASONS FOR DENYING THE PETITION
Petitioner frames the question presented as
“whether, to establish that a prosecutor’s blatant
appeals to racial prejudice constitute plain error, the
defendant must show that they altered the jury’s
verdict.” Pet. (i). Petitioner argues that the answer to
this question should be “no,” but he forfeited the right
to make this argument when he failed to raise it in the
Colorado Court of Appeals, leaving that court, and later
the Colorado Supreme Court, to evaluate the
prosecutor’s remarks under Colorado’s standard test
for plain error. Like the federal plain-error test, the
Colorado test places the burden of establishing such
error on the defendant.
The Colorado Supreme Court’s application of its
state’s plain-error test does not present a federal
question for this Court’s resolution and petitioner does
not assert that Colorado lacks a legitimate interest in
enforcing its procedural rule. Instead, he asks the
Court to apply a new standard that was not properly
raised and was never considered by the Colorado
Courts.
I.

This Court lacks jurisdiction over this case,
because the Colorado Supreme Court did
not consider the alleged federal question
presented in the petition.

This Court’s has authority to correct state
judgments that incorrectly adjudicate federal rights.
Herb v. Pitcairn, 324 U.S. 117, 125-126 (1945). But
state courts are the ultimate expositors of state law,
and this Court is bound by their constructions except in

9
extreme circumstances. Mullaney v. Wilbur, 421 U.S.
684, 691 (1975).
Petitioner asserts that this Court has jurisdiction
over the Colorado Supreme Court’s decision under 28
U.S.C. § 1257(a) as a right claimed under the
Constitution of the United States. Pet. 1. But the
Colorado Supreme Court did not base its decision upon
any federal claim asserted by petitioner. The Colorado
Supreme Court affirmed petitioner’s convictions
because it concluded that the prosecutor’s remarks
during the trial did not violate the state’s test for plain
error. See Colorado Crim. P. 52(b). As applied by
Colorado courts, plain error review involves a threepart inquiry: (1) whether there was an error;
(2) whether the error was “plain,” meaning that it was
clear or obvious; and (3) whether the error so
undermined the fundamental fairness of the trial itself
as to cast serious doubt on the reliability of the
judgment of conviction. See, e.g., Hoggard v. People,
465 P.3d 34, 43 (Colo. 2020).1
1

Under both the Colorado and the federal tests for plain error, the
defendant bears the burden of showing that any error that
occurred was plain. See People v. Vigil, 127 P.3d 916, 929, 930
(Colo. 2006); United States v. Olano, 507 U.S. 725, 734 (1993). But
Colorado’s test is less stringent than the federal test, which
requires a showing of 1) error (2) that is clear or obvious and
(3) affects the defendant’s substantial rights, meaning that it must
have affected the outcome of the district court proceedings. Olano,
id. at 732-736. If the first three elements of the federal test are
met, the reviewing court may exercise its discretion to correct the
error, but only if (4) the error “seriously affects the fairness,
integrity, or public reputation of judicial proceedings.” Id. at 736.
Colorado has not adopted the fourth element of the federal plainerror test, relieving the defendant of the burden of showing an
element that this Court views as essential to establish plain error.

10
Because his case was resolved under state law,
petitioner cannot now ask this Court to consider his
constitutional claim. It is essential to the jurisdiction
of this Court in reviewing a decision of a court of a
state that it must appear affirmatively from the record,
not only that a federal question was presented for
decision to the highest court of the state having
jurisdiction but that its decision of the federal question
was necessary to the determination of the cause, and
that the judgment as rendered could not have been
given without deciding it. Lynch v. New York ex. Rel.
Pierson, 293 U.S. 52, 54 (1934). Here, the Colorado
Supreme Court did not address any constitutional
issues in its opinion. It did not do so because it was
able to resolve the case by applying the state’s criminal
procedural rule governing plain error.
State procedural rules that provide the basis for an
appellate decision will be honored if they serve a
legitimate state interest. Henry v. Mississippi, 379
U.S. 443, 447 (1965). And the plain-error rule serves a
legitimate state interest: It creates an incentive to
timely raise claims and objections at the trial court
level. It thus enhances the trial court’s ability to avoid
errors or correct them efficiently. And it prevents
litigants from “sandbagging,” i.e., remaining silent
about an objection and raising it in a belated manner
only if the case does not conclude in their favor.
Puckett v. United States, 556 U.S. 129, 134 (2009).
Petitioner does not question the legitimacy of
Colorado’s plain error rule, but he argues that a
modified form of the rule should be applied in a case
like this, where a prosecutor’s race-based comments are

11
challenged on appeal in the absence of an objection at
trial. This is an argument that he failed to properly
raise in the state courts.
II.

Petitioner has forfeited the right to argue
that this Court should review the
prosecutor’s remarks under a modified
version of the plain-error test that would
relieve him of the burden of showing
prejudice to his substantial rights, given
his failure to raise that argument in a
proper manner in the Colorado courts.

This Court is “a court of review, not first view.”
Cutter v. Wilkinson, 544 U.S. 709, 718 n. 7 (2005). It
consistently refuses to address new arguments that
were not raised in the lower courts. See, e.g., United
States v. Oakland Cannabis Buyers’ Cooperative, 532
U.S. 483 (2001) (declining to address in the first
instance claims that were not addressed below). The
Colorado Supreme Court employs the same approach.
See American Family Mut. Ins. Co. v. DeWitt, 218 P.3d
318, 326 (Colo. 2009)(declining to consider an argument
that was not presented to the Colorado Court of
Appeals).
Petitioner argues that, given the nature of the error
at issue, the burden should be on the government to
prove that the prosecutor’s remarks did not affect the
outcome of his trial. Alternatively, he argues that the
nature of the error should result in the automatic
reversal of his convictions. Pet. 15-22.
But in the state court of appeals, petitioner limited
his argument to an assertion that the prosecutor’s

12
statements constituted plain error. Robinson C.A. Br.
5-6. He did not argue that he was entitled to automatic
reversal, nor did he argue that the government should
have the burden of proving that the prosecutor’s
statements did not affect the jury’s verdict.
In the state supreme court, petitioner argued for the
first time that the court should consider adopting a
different test for evaluating statements that invoke
race. Robinson, Colo. S.C. Br., 31-32. The state
supreme court did not acknowledge that argument,
undoubtedly because petitioner had failed to present it
to the state court of appeals.
Petitioner’s method of litigating this case is akin to
that of the petitioner in Calhoun v. United States, 133
S. Ct. 1136 (2013), who argued in a petition for a writ
of certiorari that a prosecutor’s racially-charged
question should lead to automatic reversal of his
convictions, even though there was no objection to the
question during trial. This Court denied certiorari at
least in part because the petitioner was relying on a
new argument. Id. at 1137 (Sotomayer, J. respecting
the denial of certiorari).
Petitioner argues that his case is not like Calhoun
because he asked the Colorado Supreme Court to apply
a modified version of the state plain-error test. Pet. 2.
But he overlooks the reality that the Colorado Supreme
Court, like this Court, is a court of review rather than
first view. Petitioner failed to preserve his arguments
in the state supreme court because he did not present
them in the state court of appeals. That failure of
presentation dooms his present effort. His arguments
are not properly preserved for certiorari review.

13

III.

This case is a poor vehicle for resolving the
question presented.

The cases cited in the petition for a writ of
certiorari — and the precedents cited in those cases —
demonstrate that this country has a wretched history
of prosecutors making appeals to racial prejudice to
juries. And regrettably those appeals are an ongoing
problem, as demonstrated by recent case law that
petitioner cites.
Respondent does not condone prosecutor appeals to
racial animus. But, for several reasons, this case is a
poor vehicle for addressing the issue of how to handle
such misconduct.
First, this case presents a poor vehicle for resolving
the question presented because of the tenor of the
prosecutor’s remarks. The comments, which were
admittedly ill-conceived and inappropriate, highlighted
a race-related fact but were unaccompanied by any
editorial comment. In this regard, they are different
from the comments in most of the cases cited by
petitioner, in which prosecutors invoke racial slurs and
stereotypes to establish guilt. See, e.g., Calhoun v.
United States, 133 S. Ct. 1136 (2013)(prosecutor asked
the defendant on cross-examination why a gathering of
African-Americans and Hispanics in a hotel room with
a bag full money did not lead him to believe he was
witnessing a drug deal); United States v. Doe, 903 F.2d
16 (D.C. Cir. 1990)(prosecutor made generalizations in
closing argument about Jamaicans taking over the
drug trade); Miller v. North Carolina, 583 F.2d 701 (4th

14
Cir. 1978)(prosecutor’s racially inflammatory closing in
a rape trial included argument that “the average white
woman” would never consent to having sexual relations
with a black man); Reynolds v. State, 580 So.2d 254
(Fla.App. Dist. 1991) (prosecutor in a sexual battery
case repeatedly emphasized that (among other things)
white women such as the victim were not safe from
defendant, a black man, and that the victim would not
have consented to the encounter); State v. Monday, 257
P.3d 551 (Wash. 2011) (prosecutor discounted the
testimony of African-American witnesses on the basis
of their race alone and repeatedly mocked their
pronunciation of the word “police” during trial).
Second, this case is a poor vehicle for resolving the
question presented because of the circumstances in
which the prosecutor’s remarks occurred. As the
Colorado Supreme Court recognized, the comments at
issue occurred in the prosecutor’s opening statement,
“in the context of suggesting to the jury what E.G. was
apparently expected to say in her testimony.” Pet. App.
13a. This distinguishes them from the comments in
most of the cases petitioner relies on. And, as noted by
the Colorado Supreme Court, “[t]his testimony was at
least possibly relevant to two evidentiary points,
namely, (1) whether Robinson’s alleged assault on A.M.
included penetration and (2) how E.G. was able to see
such penetration in a darkened room.” Pet. App.
13(a).2
2

Relying on newspaper articles that are not part of the appellate
record, and indeed do not even pertain to this case, petitioner
suggests that the prosecutor’s conduct was motivated by a desire
to win a conviction at all costs. Pet. 6. To counter that suggestion,
respondent directs the Court’s attention to a police report (which

15
It does not necessarily follow from A.M.’s failure to
testify as promised that the prosecutor was either
“deliberately appealing to racial prejudice or
astonishingly oblivious to the meaning of her words.”
Pet. 6. “Many things might happen during the course
of the trial which would prevent the presentation of all
the evidence described in advance. Certainly not every
variance between the advance description and the
actual presentation constitutes reversible error, when
a proper limiting instruction has been given.” Frazier
v. Cupp, 394 U.S. 731, 736 (1969).
The prosecutor’s comments were injudicious. But,
as the Colorado Supreme Court recognized, those
comments were an attempt to inform the jury how a
witness was expected to testify. They had at least
some relevance to an essential element of an alleged
sexual assault — i.e., whether sexual penetration had
occurred. For this reason, the circumstances of this
case present a poor vehicle for addressing the

is also not part of the appellate record, but was released to
petitioner’s trial attorney in discovery) that records an interview
between a police officer and the perceiving witness, E.G. In
response to a question about how she was able see sexual
penetration that had occurred in a darkened room, E.G. stated
that “[A.M.] is white, and Marcus is black, so she was able to see
everything.” The report suggests that the prosecutor had benign
motives for her remarks — namely, that she expected E.G. to
testify about the parties’ contrasting skin tones. It also explains
why petitioner’s trial attorney allowed the prosecutor’s remarks to
pass without objection.
Respondent will file a motion under Rule 32.3 of the Rules of
this Court to lodge the police report with the Clerk as non-record
material.

16
appropriate test for reviewing “blatant appeals to racial
prejudice.” Pet. (i).
CONCLUSION
The petition for writ of certiorari should be denied.
Respectfully submitted,
DOYLE BAKER
Senior Deputy District Attorney
Counsel of Record
DANIEL H. MAY
District Attorney
EL PASO COUNTY, COLORADO
DISTRICT ATTORNEY
105 East Vermijo Ave.
Colorado Springs, Colorado 80907
doylebaker@elpasoco.com
(719) 520-7384
Counsel for Respondent
August 24, 2020

